Board of Governors of the Federal Reserve System




        Material Loss Review of 

             Orion Bank





       Ofﬁce of Inspector General




                                           June 2010

                                         June 14, 2010


The Honorable Daniel K. Tarullo
Chairman
Committee on Supervisory and Regulatory Affairs
Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Governor Tarullo:

      Consistent with the requirements of section 38(k) of the Federal Deposit Insurance Act
(FDI Act), as amended, 12 U.S.C. 1831o(k), the Office of Inspector General of the Board of
Governors of the Federal Reserve System conducted a material loss review of Orion Bank
(Orion). The FDI Act requires that the Inspector General of the appropriate federal banking
agency review the agency’s supervision of a failed institution when the loss to the Deposit
Insurance Fund (DIF) is material—that is, it exceeds the greater of $25 million or 2 percent of
the institution’s total assets. The FDI Act specifically requires that we

     •	 review the institution’s supervision, including the agency’s implementation of Prompt
        Corrective Action;

     •	 ascertain why the institution’s problems resulted in a material loss to the DIF; and

     •	 make recommendations for preventing any such loss in the future.

      Orion became a state-chartered member bank in 2002 through the merger of two national
banks—First National Bank of the Florida Keys and Gulf Coast National Bank. Headquartered
in Naples, Florida, Orion had as many as 24 branch offices in Southwest Florida, the Florida
Keys, and Palm Beach County. The bank was supervised by the Federal Reserve Bank of
Atlanta (FRB Atlanta), under delegated authority from the Board of Governors of the Federal
Reserve System (Federal Reserve Board), and by the Florida Office of Financial Regulation
(State).

      On November 9, 2009, the Federal Reserve Board issued an enforcement action in the form
of a non-consent Prompt Corrective Action (PCA) Directive that included a provision ordering
the removal of Orion’s Chief Executive Officer (CEO), who also served as the bank President
and the Chairman of the Board of Directors. The non-consent PCA Directive stated that, in the
July 2009 timeframe, the bank’s CEO made false statements to the Federal Reserve and, among
other things, permitted the bank to make loans that (1) exceeded and, therefore, violated
the Florida legal lending limit statute; (2) had inadequate analysis of the borrower’s
creditworthiness or capacity for repayment; and (3) were structured in a manner to make it
appear that Orion was reducing its level of classified assets. In addition, the non-consent PCA
Governor Daniel K. Tarullo                       2                                   June 14, 2010

Directive indicated that the CEO had knowledge that these loans were used to acquire Orion’s
common and preferred stock and to purchase low quality assets from the bank. We have
provided our report to the Office of Inspector General’s investigations section for further review
and analysis.

     The State closed Orion on November 13, 2009, and named the Federal Deposit Insurance
Corporation (FDIC) as receiver. In a letter dated December 14, 2009, the FDIC Inspector
General advised us that the bank’s failure would result in a $593.8 million loss to the DIF, or 22
percent of the bank’s $2.7 billion in total assets, which would be a material loss to the DIF.

      Orion failed because its Board of Directors and management did not control the risks
associated with rapid growth and an extremely high concentration in commercial real estate
(CRE) and, in particular, acquisition, development, and construction (ADC) loans. Under the
direction of the CEO, who had a dominant role in the bank and held a controlling interest in the
parent bank holding company, Orion aggressively expanded its CRE and ADC loan portfolios in
the south Florida market from 2004 through 2006. A subsequent rapid decline in the Florida real
estate market led to deteriorating asset quality and significant losses, particularly in the ADC
portfolio. Bank management failed to acknowledge the extent of the real estate market downturn
and was slow in recognizing and mitigating credit risk exposure. Mounting loan losses
eliminated the bank’s earnings, depleted capital, and ultimately led the State to close Orion and
appoint the FDIC as receiver on November 13, 2009.

      With respect to supervision, FRB Atlanta complied with examination frequency guidelines
for the timeframe we reviewed, 2005 through 2009, and conducted regular off-site monitoring.
During this period, FRB Atlanta and the State conducted six examinations and executed three
formal enforcement actions: a Written Agreement, a Cease and Desist Order, and a non-consent
PCA Directive.

      Fulfilling our mandate under section 38(k) of the FDI Act provides the opportunity to
determine, in hindsight, whether additional or alternative supervisory action could have been
taken to reduce the likelihood of the bank’s failure or a loss to the DIF. Our analysis of FRB
Atlanta’s supervision of Orion revealed that a State examination report issued in March 2007
identified a notable change in the bank’s risk profile resulting from a deteriorating real estate
market and newly identified weaknesses in credit risk management and Board of Directors
oversight. We believe the findings included in the State examination report should have signaled
to FRB Atlanta that additional, timely supervisory attention was warranted earlier in 2007,
instead of waiting until December 2007 to begin on-site examination work.

      The State’s March 2007 examination report revealed that the real estate market in Orion’s
service areas had deteriorated; however, the bank’s CRE and ADC loan concentrations continued
to increase. In addition, examiners noted that a $533 million, or 70 percent, increase in CRE
loans, and a $406 million, or 84 percent, increase in ADC loans, registered during the 12-month
period ending March 31, 2006, exposed the bank to “greater credit risk.” In contrast to the
generally favorable assessment cited in a March 2006 FRB Atlanta examination report, State
examiners described Orion’s loan review program as ineffective, and noted that the bank’s
internal loan grading did not identify certain problem loans. Examiners warned that “the
Governor Daniel K. Tarullo                       3	                                   June 14, 2010

untimely identification of loan problems could expose the bank to additional credit losses.” The
State examination report also raised concerns that “appraisals made at the height of the real
estate market in 2004 and 2005 may not represent the realistic fair value of the collateral today,”
and that Orion’s allowance for loan and lease losses methodology should be reconsidered in light
of the residential real estate market slowdown and the bank’s concentration in CRE loans. In
addition, contrary to the positive opinion expressed in FRB Atlanta’s 2006 examination report,
State examiners commented that Orion’s Board of Directors seemed to offer little direction or
supervision, and that the CEO appeared to view the Board of Directors as a hindrance more than
anything else.

      While we believe that the circumstances presented in the March 2007 State examination
report provided an opportunity for an earlier supervisory response in 2007, given the rapid
decline in the real estate markets served by Orion, it is not possible to determine whether earlier
supervisory attention would have affected Orion’s subsequent decline or the failure’s cost to the
DIF.

      Orion’s failure offers a valuable lesson learned that can be applied when supervising banks
with similar characteristics and circumstances. In our opinion, Orion’s failure illustrates that
financial institutions with a dominant CEO, a weak Board of Directors, and extremely high
concentrations in risky assets such as CRE and ADC loans require (1) heightened supervisory
attention even when financial performance is strong, and (2) an immediate and forceful
supervisory response when signs of market deterioration or weaknesses in credit risk
management first become apparent.

      We provided our draft report to the Director of the Division of Banking Supervision and
Regulation for review and comment. Overall, the Director concurred with our conclusions and
lesson learned. His response is included as Appendix 3.

     We appreciate the cooperation that we received from FRB Atlanta and Federal Reserve
Board staff during our review. The Office of Inspector General principal contributors to this
report are listed in Appendix 4. This report will be added to our public web site and will be
summarized in our next semiannual report to Congress. Please contact me if you would like to
discuss this report or any related issues.

                                             Sincerely,



                                      Elizabeth A. Coleman
                                        Inspector General

cc:	 Chairman Ben S. Bernanke
     Vice Chairman Donald L. Kohn
     Governor Elizabeth A. Duke
     Governor Kevin M. Warsh
     Mr. Stephen R. Malphrus
     Mr. Patrick M. Parkinson
     Mr. Michael Johnson
Board of Governors of the Federal Reserve System





          Material Loss Review of

               Orion Bank





       Office of Inspector General


                                              June 2010
                                                        Table of Contents

                                                                                                                                           Page


Background .................................................................................................................................. 9


Objectives, Scope, and Methodology.......................................................................................... 9


Cause of the Failure................................................................................................................... 10


  Dominant CEO and Weak Board of Directors.......................................................................... 10


  Aggressive Growth Resulted in High CRE and ADC Loan Concentrations............................. 11


  Real Estate Market Decline Led to Loan Portfolio Deterioration ............................................. 12


  Loan Portfolio Losses Eroded Capital ...................................................................................... 13


Supervision of Orion Bank........................................................................................................ 15


  November 2005 Full Scope Examination Resulted in a CAMELS Composite 2 

  Rating ....................................................................................................................................... 16


  December 2006 Full Scope State Examination Resulted in

  Another CAMELS Composite 2 Rating ................................................................................... 17


  Off-site Monitoring Activities in 2007 ..................................................................................... 17


  December 2007 Full Scope Examination Resulted in a Double Downgrade 

  to a CAMELS Composite 4 Rating and a Written Agreement.................................................. 18


  October 2008 Target Examination Resulted in Another CAMELS 

  Composite 4 Rating .................................................................................................................. 19


  January 2009 Concurrent Full Scope Examinations Resulted in a Cease 

  and Desist Order ...................................................................................................................... 20


  August 2009 Target Examination ............................................................................................. 21


Conclusions and Lesson Learned ............................................................................................. 21


  Lesson Learned......................................................................................................................... 22


Analysis of Comments ............................................................................................................... 22





                                                                        7

Appendixes ................................................................................................................................. 23


  Appendix 1 – Glossary of Banking and Regulatory Terms ...................................................... 25


  Appendix 2 – CAMELS Rating System ................................................................................... 27


  Appendix 3 – Division Director’s Comments........................................................................... 29


  Appendix 4 – Office of Inspector General Principal Contributors to this Report ..................... 31





                                                                      8

Background
Orion Bank (Orion) became a state-chartered member bank in 2002 through the merger of two
national banks—First National Bank of the Florida Keys and Gulf Coast National Bank.
Headquartered in Naples, Florida, Orion had as many as 24 branch offices in Southwest Florida,
the Florida Keys, and Palm Beach County. The bank was supervised by the Federal Reserve
Bank of Atlanta (FRB Atlanta), under delegated authority from the Board of Governors of the
Federal Reserve System (Federal Reserve Board), and by the Florida Office of Financial
Regulation (State).

On November 9, 2009, the Federal Reserve Board issued an enforcement action in the form of a
non-consent Prompt Corrective Action (PCA) Directive that included a provision ordering the
removal of Orion’s Chief Executive Officer (CEO), who also served as the bank President and
the Chairman of the Board of Directors. 1 The non-consent PCA Directive stated that, in the July
2009 timeframe, the bank’s CEO made false statements to the Federal Reserve and, among other
things, permitted the bank to make loans that (1) exceeded and, therefore, violated the Florida
legal lending limit statute; (2) had inadequate analysis of the borrower’s creditworthiness or
capacity for repayment; and (3) were structured in a manner to make it appear that Orion was
reducing its level of classified assets. In addition, the non-consent PCA Directive indicated that
the CEO had knowledge that these loans were used to acquire Orion’s common and preferred
stock and to purchase low quality assets from the bank. We have provided our report to the
Office of Inspector General’s investigations section for further review and analysis.

The State closed Orion on November 13, 2009, and named the Federal Deposit Insurance
Corporation (FDIC) as receiver. In a letter dated December 14, 2009, the FDIC Inspector
General advised us that the bank’s failure would result in a $593.8 million loss to the Deposit
Insurance Fund (DIF), or 22 percent of the bank’s $2.7 billion in total assets, which would be a
material loss to the DIF. 2 Under section 38(k) of the Federal Deposit Insurance Act (FDI Act), a
loss to the DIF is considered material if it exceeds the greater of $25 million or 2 percent of the
institution’s total assets.

Objectives, Scope, and Methodology
When a loss to the DIF is considered material, section 38(k) of the FDI Act requires that the
Inspector General of the appropriate federal banking agency

    •	 review the agency’s supervision of the failed institution, including the agency’s

       implementation of PCA; 




      1
         A non-consent PCA Directive is a formal enforcement action requiring bank management to take certain
actions due to the bank’s weakened capital position. The Directive is issued without the Board of Directors’
concurrence and allows the bank to appeal within 14 calendar days of receipt.
       2
         Subsequently, the FDIC revised the estimated loss to the DIF to be approximately $653.2 million, as of
December 31, 2009.

                                                        9

    •       ascertain why the institution’s problems resulted in a material loss to the DIF; and

    •       make recommendations for preventing any such loss in the future.

To accomplish our objectives, we reviewed the Commercial Bank Examination Manual and
relevant supervisory guidance. We interviewed staff and collected data from the Federal Reserve
Board in Washington, D.C.; FRB Atlanta; the State; and the FDIC. We also reviewed bank
reports, correspondence, surveillance reports, enforcement actions, Reports of Examination
(examination reports) issued from 2005 through 2009, and examination work papers prepared by
FRB Atlanta. Appendixes at the end of this report contain a glossary of key banking and
regulatory terms and a description of the CAMELS rating system. 3 We conducted our fieldwork
from December 2009 through April 2010, in accordance with the Quality Standards for
Inspections issued by the Council of the Inspectors General on Integrity and Efficiency.

Cause of the Failure
Orion failed because its Board of Directors and management did not control the risks associated
with rapid growth and an extremely high concentration in commercial real estate (CRE) and, in
particular, acquisition, development, and construction (ADC) loans. Under the direction of the
CEO, who had a dominant role in the bank and held a controlling interest in the parent bank
holding company, Orion aggressively expanded its CRE and ADC loan portfolios in the south
Florida market from 2004 through 2006. A subsequent rapid decline in the Florida real estate
market led to deteriorating asset quality and significant losses, particularly in the ADC portfolio.
Bank management failed to acknowledge the extent of the real estate market downturn and was
slow in recognizing and mitigating credit risk exposure. Mounting loan losses eliminated the
bank’s earnings, depleted capital, and ultimately led the State to close Orion and appoint the
FDIC as receiver on November 13, 2009.

Dominant CEO and Weak Board of Directors

Orion’s Board of Directors consisted of five members—the CEO and four outside directors—
which was the minimum number of directors required under federal and state statutes. Orion’s
CEO owned 24 percent of the parent bank holding company’s stock, making him the largest
shareholder. The CEO was the dominant force in establishing the bank’s strategic direction and
overall risk profile, including day-to-day management. None of the outside directors had
banking experience, and examiners noted that (1) the CEO “does not look to the directorate for
support in managing the affairs of the bank,” and (2) the Board of Directors’ oversight was
inadequate.




        3
         The CAMELS acronym represents six components: Capital adequacy, Asset quality, Management
practices, Earnings performance, Liquidity position, and Sensitivity to market risk. Each component and overall
composite score is assigned a rating of 1 through 5, with 1 having the least regulatory concern and 5 having the
greatest concern.


                                                        10

Aggressive Growth Resulted in High CRE and ADC Loan Concentrations

Orion’s business strategy, which was heavily influenced by the CEO, focused on aggressive
growth in the bank’s loan portfolio. Management projected annual loan growth rates of 31
percent in 2005, and 25 percent in 2006. The bank’s actual growth rate significantly exceeded
these projections in both years, reaching 41 percent and 32 percent, respectively. Orion funded
its loan growth with non-core funding, including brokered deposits. 4 Orion’s growth was driven
primarily by CRE loans, particularly ADC loans tied to the residential real estate market. The
growth in CRE and ADC loans was attributed to an expanding south Florida real estate market.
As shown in Chart 1 below, total CRE loans more than doubled from $722.3 million in 2004, to
$1.49 billion in 2006, with ADC loans increasing from $481 million to $1 billion during the
same period. A decline in CRE and ADC loans that began in 2007 resulted from losses related
to the deteriorating real estate market.

Chart 1: Growth in CRE and ADC Loans


                             $1,600,000
                             $1,400,000
          ($000's omitted)




                             $1,200,000
             Total CRE




                             $1,000,000
                              $800,000
                                                                                                 Other CRE Loans
                              $600,000
                              $400,000                                                           ADC
                              $200,000
                                     $0
                                          2004   2005    2006      2007     2008
                                                        Year-end



Orion’s aggressive growth led to high concentrations in CRE and ADC loans. 5 In general, credit
concentrations increase a financial institution's vulnerability to changes in the marketplace and
compound the risks inherent in individual loans. As shown in Chart 2a on page 12, the bank’s
CRE loan concentration was approximately 700 percent of total risk-based capital in 2006.
Orion’s CRE loan concentration reached 739 percent of total risk-based capital by
December 31, 2008. Historically, Orion’s CRE loan concentration was well above its peer


      4
          Brokered deposits can have a significant negative effect on liquidity because these funds may not be
available in times of financial stress or adverse changes in market conditions. Although Orion's use of non-core
funding was a concern for examiners, liquidity was not a primary factor in Orion's failure.
        5
          According to the Federal Reserve Board’s Supervision and Regulation Letter 07-1, Interagency Guidance
on Concentrations in Commercial Real Estate, an institution presents potential CRE concentration risk if it meets
the following criteria: (1) total reported loans for construction, land development, and other land represent 100
percent or more of an institution’s total capital; or (2) total CRE loans represent 300 percent or more of the
institution’s total capital, and the outstanding balance of the institution’s CRE loan portfolio has increased by 50
percent or more during the prior 36 months.

                                                            11

group.6 As illustrated in Chart 2b, the bank’s ADC loan concentration also consistently
exceeded its peer group and remained over 450 percent from 2005 through 2008. Most of the
bank’s CRE portfolio, particularly its ADC loans, was centered in four south Florida counties—
Collier, Lee, Sarasota, and Manatee.

Chart 2a: CRE Loan Concentration                                                    Chart 2b: ADC Loan Concentration



                                       800%                                                                               600%




                                                                                     Total ADC as a Percentage of Total
  Total CRE as a Percentage of Total




                                       700%                                                                               500%
                                       600%
                                                                                                                          400%




                                                                                            Risk-based Capital
         Risk-based Capital




                                       500%
                                       400%                                                                               300%
                                       300%                                                                               200%
                                       200%
                                       100%                                                                               100%
                                         0%                                                                                0%
                                           2005    2006      2007      2008                                                  2005     2006      2007        2008
                                                       Year-end                                                                           Year-end

                                           Total CRE      Peer Group                                                                ADC        Peer Group



Real Estate Market Decline Led to Loan Portfolio Deterioration

Orion’s vulnerability as a result of its high CRE and ADC loan concentrations became evident as
the south Florida residential real estate market deteriorated. As Chart 3 shows, total building
permits issued for Collier, Lee, Sarasota, and Manatee counties declined 79 percent from 50,071
in 2005, to 10,679 in 2007. Total building permits continued to decrease, although at a slower
rate, through June 2009. In addition, housing prices for the Metropolitan Statistical Areas
(MSA) located in these counties began to decline in 2006, with each MSA experiencing a greater
than 20 percent decrease in 2008. 7




                           6
         Peer group includes all insured commercial banks having assets between $1 billion and $3 billion.
                           7
         MSAs are geographic entities defined by the U.S. Office of Management and Budget for use by federal
statistical agencies in collecting, tabulating, and publishing federal statistics.

                                                                              12

Chart 3: Total Building Permits Issued in Collier, Lee, Sarasota, and Manatee Counties

                                 60,000
    Number of Building Permits



                                 50,000

                                 40,000

                                 30,000

                                 20,000

                                 10,000

                                     0
                                      2005   2006              2007                  2008                   *2009
                                                           Year-end

*As of 6/30/2009

Orion's Board of Directors and management failed to recognize the extent of the local real estate
market downturn and were slow to identify problem loans. As a result, examiners frequently
disagreed with management’s loan grading decisions and downgraded a substantial number of
loans, particularly in the ADC portfolio. Nevertheless, management did not strengthen its credit
underwriting practices to account for the market downturn, and renewed or extended loans using
the original terms despite clear declines in the value of underlying projects and deteriorating real
estate market conditions. Examiners noted that many of these loans were kept current with bank
funded interest reserves, so the level of past due loans was understated. 8

Loan Portfolio Losses Eroded Capital

The declining local real estate market led to significant deterioration in Orion’s asset quality,
particularly in ADC loans. The bank’s total classified assets increased 474 percent from
$54 million in 2006, to $310 million in 2007. In addition, nonaccrual loans increased 2,659
percent throughout 2007, from $2.9 million in the first quarter to $81 million by year-end. 9
ADC loans represented approximately $74 million of the $81 million year-end nonaccrual total
balance. Although the bank’s asset quality experienced significant deterioration, examiners
noted that the level of classified assets, local economic deterioration, and high CRE
concentration “were not met with any comparable increase in the bank’s ALLL [allowance for
loan and lease losses].” The bank’s asset quality continued to deteriorate in 2008; by year end,

                                 8
            Lenders may establish an interest reserve account to periodically advance loan funds to pay interest
charges on the outstanding balance of an ADC loan. The interest is capitalized and added to the loan balance. This
practice can mask loans that would otherwise be reported as delinquent and erode collateral protection, increasing a
lender's exposure to credit losses.
          9
            Nonaccrual status means loans with overdue interest payments and uncertainty regarding collection of
principal; no interest income is recognized on these loans for reporting purposes.

                                                         13

nonaccrual loans reached $154 million, with ADC loans accounting for $128 million of the total.
Examiners repeatedly directed bank management to increase the ALLL and loan loss provision
expense, which, as shown in Chart 4, led to large losses, reduced Orion’s retained earnings, and
eroded capital.

Chart 4: Impact of Provision Expense on Earnings

                        $125,000
                        $100,000
                         $75,000
    ($000's omitted)




                         $50,000
                         $25,000
                              $0                                                    Provision Expense
                        -$25,000                                                    Net Income (loss)
                        -$50,000
                        -$75,000
                       -$100,000
                                   2005   2006        2007   2008        *2009
                                                 Year-end
*As of 9/30/2009

FRB Atlanta implemented the PCA provisions of the FDI Act and made timely notifications
when the bank reached various PCA categories. PCA is a framework of supervisory actions
intended to promptly resolve capital deficiencies at troubled depository institutions. The bank
was notified in August 2008 that it was no longer well capitalized. Orion was informed that it
could not accept, renew, or roll over any brokered deposits. Subsequently, Orion received
capital injections from the bank holding company that restored its well capitalized status.
However, during a 2009 full scope examination, examiners noted that an additional $40.4 million
of provision expense was required for year-end 2008, which caused the bank to fall back to
adequately capitalized in May 2009.

In July 2009, Orion filed a regulatory report that showed the bank had returned to well
capitalized. However, in August 2009, examiners analyzed the regulatory report and found that
Orion made errors in calculations supporting the bank’s return to the well capitalized status.
Accordingly, Orion filed an amended regulatory report in late August 2009, and on September 1,
2009, FRB Atlanta notified the bank that it was adequately capitalized.

Asset quality continued to deteriorate, and in October 2009, FRB Atlanta notified Orion that its
PCA capital position had dropped to critically undercapitalized. As noted earlier, the Federal
Reserve Board issued a PCA Directive on November 9, 2009. In addition to requiring the
removal of the CEO, it required the bank to (1) raise additional capital to achieve the adequately
capitalized PCA designation, or (2) be acquired by or merge with another depository institution.
The State closed Orion on November 13, 2009.




                                                     14

Supervision of Orion Bank
FRB Atlanta complied with examination frequency guidelines for the timeframe that we
reviewed, 2005 through 2009, and conducted regular off-site monitoring. During the almost
five-year period preceding Orion’s failure in November 2009, FRB Atlanta and the State
conducted six examinations and executed three formal supervisory actions: a Written
Agreement, a Cease and Desist (C&D) Order, and a non-consent PCA Directive.

As shown in Table 4 on page 16, the bank received a CAMELS composite 2 (satisfactory) rating
through March 2007. Orion was double downgraded to a CAMELS composite 4 (marginal)
rating in mid-2008 based on a full scope examination that resulted in an August 2008 Written
Agreement. In July 2009, Orion was downgraded to a CAMELS composite 5 (unsatisfactory)
rating, and the bank was placed under a C&D Order. An asset quality target examination that
began in August 2009 resulted in a non-consent PCA Directive; however, the bank was closed
before the examination report was issued.

Our analysis of FRB Atlanta’s supervision of Orion revealed that a March 2007 State
examination report identified a notable change in the bank’s risk profile, which should have
signaled to FRB Atlanta that additional, earlier supervisory attention was warranted in 2007.




                                               15

  Table 4: Supervisory Overview of Orion Bank


             Examination                                                            CAMELS Component Ratings




                                                                                       Asset Quality
                                         Agency          CAMELS




                                                                                                       Management
                                                                                                                                                         Supervisory




                                                                                                                                           Sensitivity
                                                                                                                               Liquidity
                                                                                                                    Earnings
                                      Conducting the     Composite




                                                                          Capital
                 Report                                                                                                                                    Actions
Start Date                  Scope      Examination        Rating
               Issue Date



11/07/2005     03/03/2006    Full      FRB Atlanta             2          2             1              2            1          2           2
12/11/2006     03/28/2007    Full         State                2          2             2              2            1          2           2
                                                                                                                                                          Written
12/03/2007     07/02/2008    Full      FRB Atlanta             4          4             4              4            4          4           3
                                                                                                                                                         Agreement
                             Asset
10/27/2008     02/09/2009   Quality    FRB Atlanta             4          4             5              4            5          4           3
                            Target
                                                                4
01/30/2009     06/12/2009                                                 4             5              4            5          4           3
                                                        (State results)
                                                    a
                             Full      Concurrent               5
                                                                                                                                                         C&D Order
01/30/2009     07/09/2009                               (FRB Atlanta      5             5              4            5          4           3
                                                            results)
                             Asset                                                                                                                       Non-consent
08/17/2009        n/a b     Quality    Concurrenta            n/a         n/a         n/a              n/a          n/a        n/a         n/a              PCA
                            Target                                                                                                                        Directive

  a
  FDIC participated in the examination
  b
  Orion was closed before an examination report was issued

  November 2005 Full Scope Examination Resulted in a CAMELS Composite 2 Rating

  In November 2005, FRB Atlanta conducted a full scope examination that resulted in a CAMELS
  composite 2 rating, with asset quality and earnings rated 1 (strong). The examination report
  cited low levels of loan losses, delinquencies, and classified assets, and noted that “the bank
  operates with a seasoned management team who has demonstrated the ability to effectively
  manage risk.” In addition, examiners stated that management depth was adequate and that the
  Board of Directors appeared to be well informed and active in committees; however, examiners
  noted that the CEO dominated the bank’s policies and had a firm control of the bank’s day-to­
  day operations. Examiners indicated that credit administration, credit analysis, underwriting, and
  appraisals were satisfactory, and that management (1) effectively identified and accurately
  assessed credit risk and (2) appropriately graded problem loans. Additionally, reports and
  information systems were cited as providing management and the Board of Directors with
  sufficient data to enable informed decisions.

  The examination report noted that Orion’s CRE concentration exposed the bank to a high degree
  of inherent credit risk and that well designed controls were necessary. Examiners recommended
  that Orion (1) perform stress testing of the entire loan portfolio; (2) establish CRE limits and sub-
  limits; (3) segment the ADC portfolio by markets; and (4) monitor speculative construction by
  borrower, product type, and location.



                                                              16

December 2006 Full Scope State Examination Resulted in Another CAMELS Composite 2
Rating

In December 2006, the State began a full scope examination that resulted in another CAMELS
composite 2 rating, although asset quality was downgraded to 2. The March 2007 examination
report noted that the residential real estate market in south Florida had deteriorated, yet Orion’s
CRE and ADC concentrations continued to increase. Examiners pointed to a $533 million, or 70
percent, increase in CRE loans, and a $406 million, or 84 percent, increase in ADC loans,
registered during the 12-month period ending March 31, 2006, as exposing the bank to “greater
credit risk.”

In contrast to the positive assessment of loan grading cited in the March 2006 FRB Atlanta
examination report, State examiners noted that the bank’s internal loan grading did not identify
certain problem loans, and concluded that Orion’s loan review program was ineffective.
Examiners stated that “the untimely identification of loan problems could expose the bank to
additional credit losses.” In addition, examiners expressed concern that “appraisals made at the
height of the real estate market in 2004 and 2005 may not represent the realistic fair value of the
collateral today.” Furthermore, the examination report noted that Orion’s ALLL methodology
should be reconsidered in light of the residential real estate market slowdown and the bank’s
concentration in CRE loans. According to examiners, Orion’s ALLL may not be sufficient
“should deterioration in the real estate market continue,” and the real estate market decline
should be a critical factor in management’s assessment of its ALLL adequacy.

The examination report indicated that management decisions continued to be heavily influenced
by the CEO, who was involved in every aspect of the bank, including day-to-day management.
However, contrary to the most recent FRB Atlanta examination, State examiners noted that
Orion’s four outside directors seemed to offer little direction or supervision and that the Board of
Directors’ decisions were dominated by the CEO, who appeared to view the Board as a
hindrance more than anything else.

Off-site Monitoring Activities in 2007

In a July 2007 email, an FRB Atlanta official advised staff that Orion was on the official’s
“Top 5” list of banks that caused “the most concern.” The official suggested that a visitation or
an earlier start date for the next examination might be indicated. A staff member indicated
general comfort “with the lending team at Orion,” and that the bank’s recent reports indicated
low delinquency rates and “flat to modest declining CRE growth in 2007.” Based on this
response, the full scope examination originally planned to begin in February 2008 was not
accelerated; however, FRB Atlanta continued its monitoring of CRE concentrations and past due
accounts. After receiving a report from Orion in November 2007 indicating a three-fold increase
in past due loans, FRB Atlanta changed its plans and began a full scope examination in
December 2007, eight months after the State issued its last examination report.




                                                17

December 2007 Full Scope Examination Resulted in a Double Downgrade to a
CAMELS Composite 4 Rating and a Written Agreement

In December 2007, FRB Atlanta started a full scope examination that resulted in a double
downgrade to a CAMELS composite 4 (marginal) rating. The capital, asset quality,
management, and liquidity components were also double downgraded from 2 to 4, while the
earnings component received a triple downgrade from 1 to 4. The July 2008 examination report
stated that financial institutions with CAMELS composite 4 ratings pose a risk to the DIF and
that failure is a distinct possibility if the problems and weaknesses are not satisfactorily
addressed and resolved. Orion’s CEO and management strongly disagreed with the findings
presented at a mid-April 2008 examination exit meeting. In an attempt to dispute the
examination findings, Orion submitted additional information and, in April and May of 2008,
attended two meetings at FRB Atlanta and one meeting at the Federal Reserve Board. The
information provided by the bank was considered, but dismissed by FRB Atlanta, and examiners
began the process of issuing a formal supervisory action while finalizing the examination report.

According to the examiners, Orion’s weak credit risk management practices, along with
extremely high CRE and ADC concentrations and the deteriorating south Florida real estate
market, contributed to the bank’s troubled condition. Management was slow to recognize
problem loans, so examiners downgraded loans valued at $172 million, or 62 percent of the
bank’s $310 million in total classified assets. The examination report revealed that the volume
of examiner downgrades “reflects ineffective loan grading and risk identification by management
and suggests that additional unidentified credit risk is embedded in the remaining portfolio.”
Examiners noted that management disagreed with an overwhelming majority of the examiner
downgrades.

The examination report stated that management dealt with problem loans by extending or
renewing the loans on an interest only basis, in an attempt to allow the borrowers more time to
sell the underlying collateral. However, examiners noted that borrowers “seem to have had
limited success in moving the properties, even with the renewals and extensions.” According to
examiners, a number of problem loans continued to “perform only because of payments from
bank-funded interest reserves.”

Examiners noted that the bank’s ALLL “has not been directionally consistent with the elevated
risk within the bank’s loan portfolio, including the sharp rise in past due and nonperforming
loans.” In addition, examiners found that the ALLL methodology could not produce a reliable
estimate of loss exposure in the loan portfolio. During the examination, FRB Atlanta created a
process for estimating an appropriate ALLL for Orion. This process was incorporated in Federal
Reserve Board guidance now used to estimate the ALLL when examiners determine that a
community bank’s methodology is inadequate. The examination report stated that an additional
provision of $42 million was needed to bring Orion’s ALLL to a minimally acceptable level.

According to examiners, Orion had appraisal program deficiencies that were cause for significant
regulatory concern. Examiners noted that many loans were supported by stale appraisals or by
appraisals containing highly questionable or outdated assumptions. In addition, examiners stated
that the bank was not in compliance with the Interagency Appraisal and Evaluation Guidelines

                                               18

(Federal Reserve Board Supervision and Regulation Letter 94-55) because, among other things,
Orion had not established processes to ensure that appraisals and evaluations were being
reviewed by qualified individuals independent of the loan production process. 10

Examiners stated that the Board of Directors and senior management did not properly identify,
manage, and mitigate the risks inherent in the bank’s high concentrations in CRE and ADC
loans. Furthermore, management failed to implement critical risk mitigation plans in a
deteriorating real estate market. Examiners noted that the CEO dominated the bank’s policies
and operations and had an annual bonus tied to the bank’s earnings growth, which provided an
“incentive to delay recognition of problem credits [loans] and associated provisions.”

FRB Atlanta and the State executed a formal enforcement action in the form of a Written
Agreement on August 25, 2008. The Written Agreement required the Board of Directors to
address a variety of issues, including loan renewal, use of interest reserves, appraisals, problem
loan identification, board oversight of management and bank operations, concentrations of credit,
lending and credit administration, the ALLL, and capital.

October 2008 Target Examination Resulted in Another CAMELS Composite 4 Rating

In October 2008, FRB Atlanta began a target examination that focused on asset quality. It
resulted in another CAMELS composite 4 rating, with earnings and asset quality being
downgraded to 5. Examiners characterized the bank’s financial condition as extremely poor and
deteriorating, and stated that the Board of Directors and senior management “must do much
more to recognize the extent of the bank’s problems and effect meaningful improvement.”
Examiners noted that management had not adequately responded to required actions identified
during the prior examination and that the bank was substantially noncompliant with the Written
Agreement.

According to examiners, Orion’s classified and nonperforming assets were extremely high and
had increased since the prior examination. Examiners found that management prematurely
upgraded previously classified assets, and once again identified significant weaknesses in
problem loan identification and the ALLL methodology. Examiners concluded that Orion’s
ALLL was deficient by $26.9 million. In addition, the examination report once again expressed
concerns regarding Orion’s use of interest reserves. FRB Atlanta and the State began concurrent
full scope examinations in January 2009, approximately two weeks before the target examination
report was issued on February 9, 2009.




       10
          The Federal Reserve Board’s Supervision and Regulation Letter 94-55 provides specific guidance on
several aspects of regulated institutions’ appraisal and evaluation programs, including: (1) procedures for obtaining
an appraisal or evaluation report in a timely manner to facilitate an institution’s underwriting decision; (2) selection
criteria and procedures to evaluate and monitor the performance of individuals who perform appraisals and
evaluations; (3) criteria for using an existing appraisal or evaluation to support a subsequent transaction; and (4)
internal controls for promoting compliance with the appraisal regulation.

                                                           19

January 2009 Concurrent Full Scope Examinations Resulted in a Cease and Desist Order

In January 2009, FRB Atlanta and the State began concurrent full scope examinations that
resulted in the organizations issuing separate reports. The reports were generally consistent and,
among other things, focused on Orion’s deteriorating financial condition, repeat findings from
prior examinations, and the Board of Directors’ and management’s failure to fully comply with
the Written Agreement.

Examiners stated that Orion’s credit risk management practices were critically deficient and that
the bank continued to experience asset quality problems because management failed to (1) take
timely action to reduce CRE concentrations when market conditions began to weaken, (2)
establish effective controls to identify problem loans, and (3) develop an adequate ALLL
methodology. According to examiners, earnings were critically deficient because of the bank’s
severe asset quality problems and the need to substantially increase the ALLL and corresponding
provision expense. As a result, examiners noted that Orion’s capital had eroded significantly.

Examiners stated that the CEO’s “belief that the problems facing the bank are not as severe as
those facing the industry has proven inaccurate.” Examiners criticized the Board of Directors
and management for their unsatisfactory compliance with the Written Agreement provisions.
According to examiners, Orion’s failure to implement policies, practices, and procedures to
resolve the problems facing the bank was an unsafe and unsound practice.

The State examination report, issued on June 12, 2009, resulted in another CAMELS composite
4 rating, with individual component ratings identical to the previous examination. Examiners
noted that management planned to improve the bank’s capital position by issuing $75 million of
stock in the parent bank holding company, and that Orion would receive $47 million of the stock
issuance proceeds. Examiners recommended that Orion develop a capital contingency plan in
the event that this attempt to raise capital did not succeed.

The FRB Atlanta examination report issued on July 9, 2009, downgraded the bank to a
CAMELS composite 5 rating. The capital component also was downgraded to a 5, with all other
components remaining the same from the previous examination. In our opinion, the repeat
criticisms regarding management’s failure to (1) comply with the Written Agreement and (2)
take actions to resolve the bank’s problems indicate that the management component rating
could have been downgraded to a 5.

Examiners based the composite and capital component downgrades on additional information
obtained after the State issued its examination report. The information indicated that Orion’s
attempt to raise $75 million was unsuccessful. According to examiners, only “$25 million in
capital was raised by the parent company from two investors who are customers of the bank.”
Examiners stated that the amount of funds raised was well below the $75 million that
management expected and was, therefore, insufficient to “fully support the bank, given its
extremely high risk profile.” According to examiners, the level of delinquent and classified
assets “requires substantially more capital to absorb the risk in the portfolio.”




                                                20

The concurrent examinations revealed that the bank was operating “in substantial
noncompliance” with the Written Agreement. Accordingly, the Federal Reserve Board and the
State executed a C&D Order on September 18, 2009, which, among other things, required that
Orion (1) obtain an independent review of the bank’s corporate governance and qualifications of
senior management and Board of Directors, (2) ensure the accuracy of regulatory reporting and
financial statements, and (3) create a committee to monitor compliance with the order and the
Written Agreement.

August 2009 Target Examination

In August 2009, FRB Atlanta and State examiners began concurrent asset quality target
examinations; however, the bank was closed before the examination reports were completed.
During the course of conducting examination work, examiners identified a number of recurring
concerns, such as Orion’s insufficient ALLL, weak appraisal process, inadequate problem loan
identification, and critical deterioration of bank capital. As discussed previously, a non-consent
PCA Directive was issued on November 9, 2009, and the State closed the bank and appointed the
FDIC as receiver on November 13, 2009.

Conclusions and Lesson Learned
Orion failed because its Board of Directors and management did not control the risks associated
with rapid growth and an extremely high concentration in CRE and, in particular, ADC loans.
Under the direction of the CEO, who had a dominant role in the bank and held a controlling
interest in the parent bank holding company, Orion aggressively expanded its CRE and ADC
loan portfolios in the south Florida market from 2004 through 2006. A subsequent rapid decline
in the Florida real estate market led to deteriorating asset quality and significant losses,
particularly in the ADC portfolio. Bank management failed to acknowledge the extent of the real
estate market downturn and was slow in recognizing and mitigating credit risk exposure.
Mounting loan losses eliminated the bank’s earnings, depleted capital, and ultimately led the
State to close Orion and appoint the FDIC as receiver on November 13, 2009.

With respect to supervision, FRB Atlanta complied with examination frequency guidelines for
the timeframe we reviewed, 2005 through 2009, and conducted regular off-site monitoring.
During this period, FRB Atlanta and the State conducted six examinations and executed three
formal enforcement actions: a Written Agreement, a C&D Order, and a non-consent PCA
Directive.

Fulfilling our mandate under section 38(k) of the FDI Act provides the opportunity to determine,
in hindsight, whether additional or alternative supervisory action could have been taken to reduce
the likelihood of the bank’s failure or a loss to the DIF. Our analysis of FRB Atlanta’s
supervision of Orion revealed that the State examination report issued in March 2007 identified a
notable change in the bank’s risk profile resulting from a deteriorating real estate market and
newly identified weaknesses in credit risk management and Board of Directors oversight. We
believe the findings included in the State examination report should have signaled to FRB
Atlanta that additional, timely supervisory attention was warranted earlier in 2007, instead of
waiting until December 2007 to begin on-site examination work.

                                               21

The State’s March 2007 examination report revealed that the real estate market in Orion’s
service areas had deteriorated; however, the bank’s CRE and ADC loan concentrations continued
to increase. In addition, examiners noted that a $533 million, or 70 percent, increase in CRE
loans, and a $406 million, or 84 percent, increase in ADC loans, registered during the 12-month
period ending March 31, 2006, exposed the bank to “greater credit risk.” In contrast to the
generally favorable assessment cited in the March 2006 FRB Atlanta examination report, State
examiners described Orion’s loan review program as ineffective, and noted that the bank’s
internal loan grading did not identify certain problem loans. Examiners warned that “the
untimely identification of loan problems could expose the bank to additional credit losses.” The
State examination report also raised concerns that “appraisals made at the height of the real
estate market in 2004 and 2005 may not represent the realistic fair value of the collateral today,”
and that Orion’s ALLL methodology should be reconsidered in light of the residential real estate
market slowdown and the bank’s concentration in CRE loans. In addition, contrary to the
positive opinion expressed in FRB Atlanta’s 2006 examination report, State examiners
commented that Orion’s Board of Directors seemed to offer little direction or supervision, and
that the CEO appeared to view the Board of Directors as a hindrance more than anything else.

While we believe that the circumstances presented in the March 2007 State examination report
provided an opportunity for an earlier supervisory response in 2007, given the rapid decline in
the real estate markets served by Orion, it is not possible to determine whether earlier
supervisory attention would have affected Orion’s subsequent decline or the failure’s cost to the
DIF.

Lesson Learned

Orion’s failure offers a valuable lesson learned that can be applied when supervising banks with
similar characteristics and circumstances. In our opinion, Orion’s failure illustrates that financial
institutions with a dominant CEO, a weak Board of Directors, and extremely high concentrations
in risky assets such as CRE and ADC loans require (1) heightened supervisory attention even
when financial performance is strong, and (2) an immediate and forceful supervisory response
when signs of market deterioration or weaknesses in credit risk management first become
apparent.

Analysis of Comments
We provided a copy of our report to the Director of the Division of Banking Supervision and
Regulation for review and comment. His response is included as Appendix 3. The Director
concurred with the conclusions and lesson learned contained in the report. He stated that “earlier
supervisory action might have identified weaknesses sooner in 2007 reflecting market
deterioration.”




                                                 22

Appendixes

Appendix 1 – Glossary of Banking and Regulatory Terms

Acquisition, Development, and Construction (ADC) Loans
ADC loans are a component of commercial real estate loans that provide funding for acquiring
and developing land for future construction and interim financing for residential or commercial
structures.

Allowance for Loan and Lease Losses (ALLL)
The ALLL is a valuation reserve established and maintained by charges against the financial
institution’s operating income. As a valuation reserve, it is an estimate of uncollectible amounts
that is used to reduce the book value of loans and leases to the amount that is expected to be
collected. These valuation allowances are established to absorb unidentified losses inherent in
the institution’s overall loan and lease portfolio.

Brokered Deposits
Brokered deposits are deposits that are placed in a savings institution by a broker who gathers
funds from others and packages the funds in batches of $100,000. The broker then shops for
financial institutions paying the highest rates and invests in multiple $100,000 certificates of
deposit, which typically pay the highest rates of interest and are federally insured.

Classified Assets
Classified assets are loans that exhibit well-defined weaknesses and a distinct possibility of loss.
The term “classified” is divided into more specific subcategories ranging from least to most
severe: “substandard,” “doubtful,” and “loss.” An asset classified as “substandard” is
inadequately protected by the current sound worth and paying capacity of the obligor or of the
collateral pledged, if any. An asset classified as “doubtful” has all the weaknesses inherent in
one classified as “substandard,” with the added characteristic that the weaknesses make full
collection or liquidation highly questionable and improbable. An asset classified as “loss” is
considered uncollectible and of such little value that its continuance as bankable assets is not
warranted.

Commercial Real Estate (CRE) Loan
CRE loans are land development and construction loans (including one to four family residential
and commercial construction loans) and other land loans. CRE loans also include loans secured
by multifamily property and nonfarm, nonresidential property where the primary source of
repayment is derived from rental income associated with the property or the proceeds of the sale,
refinancing, or permanent financing of the property.

Concentration
A concentration is a significantly large volume of economically related assets that an institution
has advanced or committed to a certain industry, person, entity, or affiliated group. These assets
are similarly affected by adverse economic, financial, or business conditions and, in the
aggregate, may pose risk to the safety and soundness of the institution.




                                                 25

Appendix 1 (continued)

Core Deposits
Core deposits are small denomination time deposits and checking accounts acquired in a bank's
natural market area, counted as a stable source of funds for lending. These deposits have a
predictable cost, imply a degree of customer loyalty, and are less interest rate sensitive than
short-term certificates of deposit and money market deposit accounts.

Enforcement Actions
The Federal Reserve Board has a broad range of enforcement powers that include formal or
informal enforcement actions that may be taken, typically after the completion of an on-site bank
examination. Formal enforcement actions consist of Cease and Desist Orders, Written
Agreements, and Prompt Corrective Action Directives, while informal enforcement actions
include commitments, Board Resolutions, and Memoranda of Understanding.

Non-core Deposits
Non-core deposits include federal funds purchased, Federal Home Loan Bank advances,
subordinated notes and debentures, certificates of deposit of more than $100,000, and brokered
deposits.

Nonperforming Assets
Nonperforming assets are the sum of (1) total loans and lease financing receivables past due 90
or more days and still accruing interest, (2) total nonaccrual loans and lease financing
receivables, and (3) the total of other real estate owned.

Prompt Corrective Action (PCA)
PCA is a framework of supervisory actions, set forth in 12 U.S.C. 1831o, for insured depository
institutions whose capital position has declined below certain threshold levels. It was intended to
ensure that action is taken when an institution becomes financially troubled, in order to resolve
the problems of the institution at the least possible long-term loss to the DIF. The capital
categories are well capitalized, adequately capitalized, undercapitalized, significantly
undercapitalized, and critically undercapitalized.

Supervision and Regulation (SR) Letters
SR letters are issued by the Federal Reserve Board’s Division of Banking Supervision and
Regulation. They address significant policy and procedural matters of continuing relevance to
the Federal Reserve Board’s supervisory effort. SR letters are for distribution to supervised
institutions as well as Reserve Banks.

Underwriting
Underwriting is part of a bank’s lending policies and procedures that enable the bank’s lending
staff to evaluate all relevant credit factors. These factors include the capacity of the borrower or
income from the underlying property to adequately service the debt; the market value of the
underlying real estate collateral; the overall creditworthiness of the borrower; the level of the
borrower’s equity invested in the property; any secondary sources of repayment; and any
additional collateral or credit enhancements, such as guarantees, mortgage insurance, or takeout
commitments.
                                                 26

Appendix 2 – CAMELS Rating System

Under the current supervisory guidance, each institution is assigned a composite rating based on
an evaluation and rating of six essential components of the institution’s financial condition and
operations. These component factors address the adequacy of capital, the quality of assets, the
capability of management, the quality and level of earnings, the adequacy of liquidity, and the
sensitivity to market risk (CAMELS). Evaluations of the components take into consideration the
institution’s size and sophistication, the nature and complexity of its activities, and its risk
profile.

Composite and component ratings are assigned based on a 1 to 5 numerical scale. A 1 indicates
the highest rating, strongest performance and risk management practices, and least degree of
supervisory concern, while a 5 indicates the lowest rating, weakest performance, inadequate risk
management practices, and the highest degree of supervisory concern.

Composite Rating Definition

The five composite ratings are defined and distinguished below. Composite ratings are based on
a careful evaluation of an institution’s managerial, operational, financial, and compliance
performance.

Composite 1

Financial institutions in this group are sound in every respect and generally have components
rated 1 or 2. Any weaknesses are minor and can be handled in a routine manner by the Board of
Directors and management. These financial institutions are the most capable of withstanding the
vagaries of business conditions and are resistant to outside influences, such as economic
instability in their trade area. These financial institutions are in substantial compliance with laws
and regulations. As a result, these financial institutions exhibit the strongest performance and
risk management practices relative to the institutions’ size, complexity, and risk profile and give
no cause for supervisory concern.

Composite 2

Financial institutions in this group are fundamentally sound. For financial institutions to receive
this rating, generally no component rating should be more severe than 3. Only moderate
weaknesses are present and are well within the Board of Directors’ and management’s
capabilities and willingness to correct. These financial institutions are stable and are capable of
withstanding business fluctuations. These financial institutions are in substantial compliance
with laws and regulations. Overall risk management practices are satisfactory relative to the
institutions’ size, complexity, and risk profile. There are no material supervisory concerns; and,
as a result, the supervisory response is informal and limited.




                                                 27

Appendix 2 (continued)
Composite 3

Financial institutions in this group exhibit some degree of supervisory concern in one or more of
the component areas. These financial institutions exhibit a combination of weaknesses that may
range from moderate to severe; however, the magnitude of the deficiencies generally will not
cause a component to be rated more severely than 4. Management may lack the ability or
willingness to effectively address weaknesses within appropriate time frames. Financial
institutions in this group generally are less capable of withstanding business fluctuations and are
more vulnerable to outside influences than those institutions rated a composite 1 or 2.
Additionally, these financial institutions may be in significant noncompliance with laws and
regulations. Risk management practices may be less than satisfactory relative to the institutions’
size, complexity, and risk profile. These financial institutions require more than normal
supervision, which may include formal or informal enforcement actions. Failure appears
unlikely, however, given the overall strength and financial capacity of these institutions.

Composite 4

Financial institutions in this group generally exhibit unsafe and unsound practices or conditions.
There are serious financial or managerial deficiencies that result in unsatisfactory performance.
The problems range from severe to critically deficient. The weaknesses and problems are not
being satisfactorily addressed or resolved by the Board of Directors and management. Financial
institutions in this group generally are not capable of withstanding business fluctuations. There
may be significant noncompliance with laws and regulations. Risk management practices are
generally unacceptable relative to the institutions’ size, complexity, and risk profile. Close
supervisory attention is required, which means, in most cases, formal enforcement action is
necessary to address the problems. Institutions in this group pose a risk to the DIF. Failure is a
distinct possibility if the problems and weaknesses are not satisfactorily addressed and resolved.

Composite 5

Financial institutions in this group exhibit extremely unsafe and unsound practices or conditions;
exhibit a critically deficient performance; often contain inadequate risk management practices
relative to the institutions’ size, complexity, and risk profile; and are of the greatest supervisory
concern. The volume and severity of problems are beyond management’s ability or willingness
to control or correct. Immediate outside financial or other assistance is needed in order for the
financial institutions to be viable. Ongoing supervisory attention is necessary. Institutions in
this group pose a significant risk to the DIF, and failure is highly probable.




                                                 28

Appendix 3 – Division Director’s Comments

                   BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                        Division of Banking Supervision and Regulation

  Date:     June 14, 2010
   To:      Elizabeth A. Coleman, Inspector General
 From:      Patrick M. Parkinson, Director, Banking Supervision and Regulation /signed/
Subject:    Material Loss Review of Orion Bank


        The staff of the Division of Banking Supervision and Regulation has reviewed the draft
material Loss Review of Orion Bank of Naples, Florida, prepared by the Office of Inspector
General (IG) in accordance with section 38(k) of the Federal Deposit Insurance Act. The report
finds that Orion Bank failed because its Board of Directors and management did not control the
risks associated with rapid growth and an extremely high concentration in CRE and, in
particular, ADC loans. Orion aggressively expanded its CRE and ADC loan portfolios from
2004 through 2006. A subsequent rapid decline in the local real estate market led to
deteriorating asset quality and significant losses. Bank management failed to acknowledge the
extent of the real estate market downturn and was slow in recognizing and mitigating credit risk
exposure. Mounting losses eliminated the bank’s earnings and depleted its capital. Orion bank
was supervised by the Federal Reserve Bank of Atlanta (FRB Atlanta) under delegated authority
from the Board.

         Banking Supervision and Regulation staff concurs with the conclusions and lesson
learned in the report. FRB Atlanta complied with examination frequency guidelines for the
period that was reviewed, 2005 through 2009, and conducted regular off-site monitoring. During
this time period, FRB Atlanta and the State of Florida conducted six examinations and executed
three formal enforcement actions: a Written Agreement in 2008, a Cease and Desist Order in
2009, and non-consent PCA Directive in 2009. The report indicates that the State examination
report in early 2007 identified a notable change in the bank’s risk profile and should have
signaled that additional, timely supervisory attention was warranted in early 2007. The report
also states that it is not possible to determine whether earlier supervisory attention would have
affected Orion Bank’s subsequent decline or the failure’s cost to the DIF. Staff concurs that
earlier supervisory action might have identified weaknesses sooner in 2007 reflecting market
deterioration. FRB Atlanta accelerated the start date for its full scope examination when
repayment weaknesses became apparent. This December 2007 examination occurred 8 months
after the issuance of the State examination report.

        The report identifies an important lesson learned applicable to banks with similar
characteristics and circumstances. Specifically, the report concludes that financial institutions
with a dominant CEO, a weak Board of Directors, and extremely high concentrations in risky
assets, such as CRE and ADC loans require heightened supervisory attention (even when

                                                29

financial performance is strong) and an immediate and forceful supervisory response when signs
of market deterioration or weaknesses in credit risk management are evident.




                                              30

Appendix 4 – Office of Inspector General Principal Contributors to this
             Report

Victor H. Calderon, Project Leader and Senior Information Technology Auditor

Saurav Prasad, Auditor

Timothy P. Rogers, Project Manager

Anthony J. Castaldo, Assistant Inspector General for Inspections and Evaluations




                                              31

